Audit Report




                                                              




 OIG-11-093
 RECOVERY ACT: Audit of Nevada Solar One LLC Payment Under
 1603 Program
 August 17, 2011




 Office of
 Inspector General
 DEPARTMENT OF THE TREASURY
 
Contents




Audit Report

  Results in Brief .............................................................................................. 1

  Background .................................................................................................. 2

  Objectives, Scope, and Methodology ............................................................... 4

  Audit Results ................................................................................................ 5

  Recommendations ......................................................................................... 6


Appendices

  Appendix     1:      Schedule of Questioned Costs.................................................. 8
  Appendix     2:      Nevada Solar One, LLC’s Response........................................... 9
  Appendix     3:      Management’s Response ......................................................... 12
  Appendix     4:      Major Contributors to This Report ............................................. 13
  Appendix     5:      Report Distribution .................................................................. 14


Abbreviations

  AENA                 Acciona Energy North America Corporation
  ASE                  Acciona Solar Energy, LLC
  OFAS                 Office of the Fiscal Assistant Secretary
  OIG                  Office of Inspector General
  NREL                 National Renewable Energy Laboratory
  Nevada Solar         Nevada Solar One, LLC
  Recovery Act         American Recovery and Reinvestment Act of 2009
  Treasury             Department of the Treasury
  Treas. Reg.          Treasury Regulation




                       Audit of Nevada Solar LLC Payment Under 1603 Program (OIG-11-093)                    Page i
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                     Audit
OIG
The Department of the Treasury
                                                                                     Report
Office of Inspector General



                      August 17, 2011

                      Richard L. Gregg
                      Fiscal Assistant Secretary

                      As part of our ongoing oversight of the Department of the
                      Treasury’s (Treasury) 1603 Program – Payments for Specified
                      Energy Property in Lieu of Tax Credits (1603 Program) 1 authorized
                      by the American Recovery and Reinvestment Act of 2009
                      (Recovery Act), 2 we are conducting audits of selected award
                      recipients. In this regard, we have audited the award made to
                      Nevada Solar One, LLC (Nevada Solar), a solar power facility in
                      Boulder City, Nevada. Nevada Solar submitted its claim for
                      payment in lieu of tax credit in the amount of $2,913,273 on
                      October 16, 2009, and was awarded that amount by Treasury on
                      November 13, 2009. Our audit objectives were to assess the
                      eligibility and accuracy of that award by determining whether
                      (1) the property existed, (2) the property was placed into service
                      during the eligible timeframe, and (3) the award amount was
                      appropriate.


Results in Brief
                      We verified that the subject property described by Nevada Solar in
                      its 1603 Program application does exist and was placed in service
                      on September 14, 2009, which was within the eligible timeframe.
                      Nevada Solar’s reported cost basis of $9,710,911 for the subject
                      property included $24,257 for costs that we believe do not comply
                      with Treasury’s Program Guidance or Treasury Regulation (Treas.
                      Reg.) §1.263A-1. Ineligible costs are as follows:


1
  Treasury’s Office of the Fiscal Assistant Secretary (OFAS) administers this program.
2
  Pub. L. No. 111-5, 123 Stat. 115 (Feb. 17, 2009). Under section 1603 of the Recovery Act, Treasury
makes grants (payments) to eligible persons who place in service specified energy property and apply
for such payments. The purpose of the payments is to reimburse eligible applicants for a portion of the
expense of such property and are made in lieu of tax credits that could potentially be claimed by the
awardees.


                      Audit of Nevada Solar LLC Payment Under 1603 Program (OIG-11-093)          Page 1
                          •   $22,937 for an insurance premium
                          •   $1,320 for a cost accrual

                      As a result, we are questioning $7,277 of Treasury’s 1603
                      Program award to Nevada Solar (30 percent of $24,257). We are
                      recommending that your office (1) ensure that Nevada Solar
                      reimburse Treasury $7,277 for the excessive 1603 Program
                      payment received and (2) direct Nevada Solar, Acciona Energy
                      North America Corporation, and affiliated companies not to include
                      in applications for 1603 Program awards inappropriate or otherwise
                      ineligible costs in the claimed cost basis.

                      As part of our reporting process over 1603 Program awardees, we
                      provided Nevada Solar an opportunity to comment on this draft
                      report. In brief, Nevada Solar concurred with our finding but did not
                      agree with the entire amount questioned. To that end, Nevada
                      Solar agreed to only $4,612 of the award we questioned. Nevada
                      Solar’s response can be found in appendix 2.

                      Treasury management concurred with our recommendations and
                      said that it will take all appropriate action to seek reimbursement
                      from Nevada Solar in the amount of $7,277. Management’s
                      response is provided in appendix 3.


Background
                      Eligibility Under the 1603 Program

                      Applicants are eligible for a 1603 Program award if a specified
                      energy property is placed in service during calendar years 2009,
                      2010 or 2011 3 and the amount awarded is in accordance with
                      provisions of the Internal Revenue Code of 1986 for determining
                      the appropriate cost basis. Under the 1603 Program, applicants
                      submit an application to Treasury that reports the total eligible cost
                      basis of a specified energy property placed in service. If approved,

3
  Section 707 of the “Tax Relief, Unemployment Insurance Reauthorization and Job Creation Act of
2010” (Pub. L. 111-312, 124 Stat. 3296 (December 17, 2010)), extended Treasury’s 1603 Program
for 1 year. To be eligible, a property must be placed in service in 2009, 2010, or 2011 or placed in
service after 2011 but only if construction of the property began during 2009, 2010 or 2011 and the
credit termination date of the property has not expired. The application deadline was extended to
September 30, 2012.


                      Audit of Nevada Solar One LLC Payment Under 1603 Program (OIG-11-093)     Page 2
                       award amounts are based on a percent of the eligible cost basis.
                       For the type of property claimed by Nevada Solar, the percentage
                       of the cost basis eligible for award is 30 percent. According to
                       OFAS program guidance, the cost basis of the subject property is
                       determined in accordance with the general rules for determining the
                       cost basis of property for federal income tax purposes. Specifically,
                       for this type of property, applicants follow the capitalization
                       procedures found in Treas. Reg. §1.263A-1, “Uniform
                       Capitalization of Costs.” 4

                       Nevada Solar

                       Nevada Solar is a 64 megawatt solar power facility located in
                       Boulder City, Nevada, and is wholly owned by Acciona Solar
                       Energy (ASE), a subsidiary of Acciona Energy North America
                       Corporation (AENA). The parent company of AENA is Acciona,
                       S.A., a foreign corporation headquartered in Spain. To date, AENA
                       affiliates have received $70 million in 1603 payments. The
                       relationship of these entities is shown in figure 1.

                       In order to increase its solar power facility’s heat collection during
                       periods of less intense sunlight, Nevada Solar increased the number
                       of its solar collector assemblies from 760 to 800. The expansion
                       increased Solar Nevada’s expected electrical output from 120,477
                       to 126,785 megawatt hours per year. The additional 40 solar
                       collector assemblies were placed in service on September 14,
                       2009.




4
 Treas. Reg.§1.263A-1(a)(3)(ii), Property produced: “Taxpayers that produce real property and tangible
personal property (producers) must capitalize all the direct costs of producing the property and the
property's properly allocable share of indirect costs (described in paragraphs (e)(2)(i) and (3) of this
section), regardless of whether the property is sold or used in the taxpayer's trade or business.”


                       Audit of Nevada Solar One LLC Payment Under 1603 Program (OIG-11-093)       Page 3
                      Figure 1.
                                         Acciona Energy North
                                         America Corporation
                                               (AENA)



                                       Acciona Solar Energy, LLC
                                                (ASE)
                                         (100% owned by parent)



                                         Nevada Solar One, LLC
                                           (100% owned by ASE)




Objectives, Scope, and Methodology
                      To assess the eligibility and accuracy of the award made to Nevada
                      Solar under the 1603 Program, we determined whether (1) the
                      property existed, (2) the property was placed into service during
                      the eligible timeframe, and (3) the award amount was appropriate.

                      In performing our work, we visited Nevada Solar’s parent company,
                      AENA, in Chicago, Illinois; interviewed key personnel of AENA;
                      reviewed the application and related documents used by the
                      Department of Energy’s National Renewable Energy Laboratory
                      (NREL); 5 and reviewed documentation used to support the
                      existence, the in-service date, and the costs claimed by Nevada
                      Solar. For the costs claimed, we tested transactions representing
                      88 percent of those costs. We performed our work between
                      January 2011 and March 2011.

                      Our audit was conducted in accordance with generally accepted
                      government auditing standards for performance audits. Those
                      standards require that we plan and perform an audit to obtain
                      sufficient and appropriate evidence to provide a reasonable basis
                      for our findings and conclusions based on our audit objectives. We

5
 NREL is a national laboratory of the Department of Energy. Under an interagency agreement between
Treasury and Department of Energy, NREL performs the technical review of 1603 Program applications
and advises Treasury on award decisions.


                      Audit of Nevada Solar One LLC Payment Under 1603 Program (OIG-11-093)   Page 4
                         believe that the evidence obtained provides a reasonable basis for
                         our findings and conclusions based on our audit objectives.


Audit Results
                         Questioned Costs 6 in Nevada Solar’s Claimed Cost Basis
                                       Cost Description                  Cost Basis
                           Total claimed cost basis                       $9,710,911

                           Questioned costs:
                              Insurance premium (Note 1)                      $22,937
                              Unsupported cost accrual (Note 2)                $1,320
                           Total questioned cost basis                      ($24,257)

                           Recalculated cost basis                        $9,686,654
                           Recalculated award                             $2,905,996
                           (30% of recalculated cost basis)
                           Amount Awarded                                ($2,913,273)
                            Overpayment resulting from questioned
                            costs                                             ($7,277)

                         Note 1. Insurance Premium ($22,937 questioned costs)

                         Nevada Solar included $22,937 in the subject property’s cost basis
                         for an insurance premium covering heat collection element (HCE)
                         tubes which were not used in the expansion of Nevada Solar’s
                         collector assemblies. According to AENA’s Vice President of
                         Accounting, the HCE tubes actually used in the Nevada Solar
                         expansion were insured through the contractor’s builder risk policy.
                         Therefore, the insurance premium is neither a direct nor allocable
                         indirect cost of producing the property and should not be included
                         in the subject property’s cost basis.

                         Note 2. Unsupported Cost Accrual ($1,320 questioned cost)

                         Nevada Solar included an accrual of $1,320 in the subject
                         property’s cost basis that was unsupported. According to AENA’s
                         Vice President of Accounting, the unsupported cost resulted from
                         overestimating an accrual for a purchase order that was not
                         adjusted to reflect the actual amount invoiced and paid. Therefore,


6
    See appendix 1 for the definition of questioned costs.


                         Audit of Nevada Solar One LLC Payment Under 1603 Program (OIG-11-093)   Page 5
           the unsupported cost should not be included in the subject
           property’s cost basis.

           Nevada Solar Response

           Nevada Solar concurred with our questioned costs for the
           insurance premium and unsupported cost accrual. However,
           management stated that other claimed cost accruals were
           understated by a net amount of $7,564. Therefore, it agrees with a
           reduction in the claimed basis of $15,373 which would result in a
           $4,612 adjustment to its award.

           OIG Comment

           We reviewed Nevada Solar’s response and do not agree with the
           proposed adjustment to the questioned costs. In a table provided in
           its response, Nevada Solar identified certain cost accruals that
           were claimed to be understated. These accruals resulted in $7,564
           of additional costs which were not included in the cost basis of the
           subject property nor were they part of our audit sample since they
           were not claimed. It should be noted that these adjustments were
           identified by Nevada Solar after our site visit and are therefore
           unaudited. For certain items on the table, the adjustments to the
           cost accruals were based on invoices that were dated before
           Nevada Solar’s claim. It is unclear why the claim was not based on
           the actual costs for these items.

           See appendix 2 for Nevada Solar’s response.

Recommendations
           We recommend that the Fiscal Assistant Secretary do the
           following:

            1. Ensure that Nevada Solar reimburse Treasury $7,277 for the
               excessive 1603 Program payment received for the subject
               property.

            2. Direct Nevada Solar, Acciona Energy North America
               Corporation, and affiliated companies not to include in



           Audit of Nevada Solar One LLC Payment Under 1603 Program (OIG-11-093)   Page 6
      applications for 1603 Program awards inappropriate or
      otherwise ineligible costs in the claimed cost basis.

Management Response

Management concurred with our recommendations and said that it
will take all appropriate action to seek reimbursement from Nevada
Solar in the amount of $7,277.


OIG Comment

Management’s response meets the intent of our recommendations.



                                ******

The information in this report should not be used for purposes
other than what was originally intended without prior consultation
with the Office of Inspector General regarding its applicability.
Information contained in this report may be confidential. The
restrictions of 18 U.S.C. §1905 should be considered before the
information is released to the public. We appreciate the courtesies
and cooperation provided to our staff during the audit. If you wish
to discuss this report, you may contact me at (202) 927-5400 or
Donna Joseph, Audit Director, at (202) 927-5784. Appendix 4 lists
the major contributors to this report.


/s/

Marla A. Freedman
Assistant Inspector General for Audit




Audit of Nevada Solar One LLC Payment Under 1603 Program (OIG-11-093)   Page 7
Appendix 1
Schedule of Questioned Costs




A questioned cost is a cost that is questioned by the auditor
because of an audit finding: (1) which resulted from an alleged
violation or possible violation of a provision of a law, regulation,
contract, grant, cooperative agreement, or other agreement or
document governing the use of Federal funds, including funds used
to match Federal funds; (2) where the costs, at the time of the
audit, are not supported by adequate documentation; or (3) where
the costs incurred appear unreasonable and do not reflect the
actions a prudent person would take in the circumstances.
Questioned costs are to be recorded in the Joint Audit
Management Enterprise System (JAMES). The questioned costs
will also be included in the next Office of Inspector General
Semiannual Report to the Congress.

Recommendation Number                             Questioned Costs

Recommendation 1                                  $7,277

The questioned costs relate to excessive funds that Treasury
awarded to Nevada Solar under the 1603 Program. The amount
questioned is 30 percent of the excessive costs included in Nevada
Solar’s cost basis. As discussed in the audit report, the questioned
costs in the cost basis consist of two components: (1) $22,937
associated with an insurance premium and (2) $1,320 associated
with an unsupported cost accrual.




Audit of Nevada Solar One LLC Payment Under 1603 Program (OIG-11-093)   Page 8
Appendix 2
Nevada Solar One LLC’s Response




Audit of Nevada Solar One LLC Payment Under 1603 Program (OIG-11-093)   Page 9
Appendix 2
Nevada Solar One LLC’s Response




Audit of Nevada Solar One LLC Payment Under 1603 Program (OIG-11-093)   Page 10
Appendix 2
Nevada Solar One LLC’s Response




Audit of Nevada Solar One LLC Payment Under 1603 Program (OIG-11-093)   Page 11
Appendix 3
Management’s Response




Audit of Nevada Solar One LLC Payment Under 1603 Program (OIG-11-093)   Page 12
Appendix 4
Major Contributors To This Report




Donna Joseph, Director
Erica Wardley, Audit Manager
James Hodge, Auditor in Charge
Cheryl Sroufe, Auditor
Rachael Draper, Auditor
Jenny Hu, Referencer




Audit of Nevada Solar One LLC Payment Under 1603 Program (OIG-11-093)   Page 13
Appendix 5
Report Distribution




Department of the Treasury

   Assistant Secretary for Management, Chief Financial Officer,
      and Chief Performance Officer
   Fiscal Assistant Secretary
   Deputy Chief Financial Officer
   Director, Office of Accounting and Internal Controls
   Deputy Director, Office of Performance Budgeting
   Program Manager, Office of Fiscal Assistant Secretary

Office of Management and Budget

   OIG Budget Examiner

Acciona Energy North America Corporation

   Chief Financial Officer
   Vice President, Accounting




Audit of Nevada Solar One LLC Payment Under 1603 Program (OIG-11-093)   Page 14
 
